         U.S. Department of Energy
         Office of Inspector General
         Office of Audits & Inspections




Special Report

Review of the Compromise of
Security Test Materials at the Y-12
National Security Complex




DOE/IG-0875                       October 2012
                                 Department of Energy
                                    Washington, DC 20585

                                       October 26, 2012

MEMORANDUM FOR THE UNDER SECRETARY OF ENERGY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Special Report on "Review of the Compromise of
                         Security Test Materials at the Y-12 National Security Complex"

BACKGROUND

Following the July 28, 2012, security breach at the Y-12 National Security Complex (Y-12), the
Department of Energy's Office of Health, Safety and Security (HSS) was tasked with conducting
a comprehensive inspection of the site's security organization. The inspection, initiated on
August 27, 2012, included both practical exercises and tests designed to evaluate the knowledge,
skills and abilities of the site's Protective Force.

At approximately 11:00 pm on the night of August 29, 2012, while conducting performance
testing, an HSS inspector discovered a copy of what he identified to be a security knowledge test
in the patrol vehicle of a WSI-Oak Ridge (WSI-OR) Protective Force official who was escorting
him. The test was one that had been scheduled to be administered to a sample of the Protective
Force officers on the following day. The inspector immediately raised concerns regarding what
appeared to be a compromise of the upcoming test. Eventually, testing activities were suspended
to permit HSS officials to rewrite the test to ensure that the integrity of the inspection was
maintained.

As noted in our prior Special Report on Inquiry into the Security Breach at the National Nuclear
Security Administration's Y-12 National Security Complex (DOE/IG-0868, August 2012), the
July 28 security breach reflected multiple system failures. As such, in our continued monitoring
of the situation, the Office of Inspector General initiated a special review into alleged
compromise of the HSS inspection.

CONCLUSIONS AND OBSERVATIONS

Our inquiry confirmed that the security knowledge test, including answers to the test questions,
had been compromised and that it had been distributed in advance of the test to numerous WSI-
OR Captains, Lieutenants, and Security Police Officers (SPO), the very people whose knowledge
was to have been evaluated as part of this process. Our conclusion was based on interviews with
Federal and contractor officials who were involved with or had knowledge of the test distribution
and on a review of supporting information pertinent to the actions taken by those individuals;
both before and following the discovery of the compromised test in the patrol vehicle. WSI-OR
personnel testified uniformly that there was no intent to cheat on the HSS inspection. While we
had no direct evidence to the contrary, we found the credibility of this testimony to be
questionable, especially in light of a number of actions that we identified related to the
transmission, review and distribution of the test that, at best, demonstrated a lack of due care and
negligence. The failure to properly safeguard the test prior to its administration, especially given
the intense focus on Y-12 and the security concerns at the site, was, in our opinion, inexplicable
and inexcusable. Specifically:

      •   Despite the fact that the document was labeled as a test and was initially distributed via
          encrypted email to individuals appointed as "Trusted Agents," WSI-OR officials treated
          the document as if it were a training aid, mentioned its receipt at daily Protective Force
          supervisor meetings, and widely distributed it to a variety of officers. Of equal concern, a
          senior B&W Technical Services Y-12, LLC (B&W)1 official, who also serves at another
          high-security Department site, indicated that he had taken similar actions to coordinate
          inspection-related materials with Protective Force management prior to administration
          while serving at the other site.

      •   While one would expect that in normal situations testing materials would be withheld
          from the entity being tested, we learned that such was not the case in the Y-12 situation.
          The Federal security official at Y-12 who was provided the test for review and comment
          told us that it was not his role to provide input on the test. HSS officials explained that
          Federal security officials at sites often lack detailed knowledge regarding security and
          Protective Force operations that is needed in the execution of contractor knowledge tests.
          Further, as a consequence, a senior security representative of the contractor was placed in
          a position of reviewing and providing comments on a knowledge test designed to
          evaluate its own performance. These HSS officials also noted that because of the "eyes
          on, hands off" approach to contactor governance at high security sites, it was necessary to
          distribute performance testing materials to security contractors for review prior to
          administration of the test.

While we do not believe that they excuse actions taken in this case, we observed several
opportunities to improve the integrity and transparency of the knowledge testing process.
Although the Federal official who initially distributed the test took action to protect its contents
by encrypting the email used to transmit it and sending it only to "Trusted Agents," the email did
not contain specific instructions for protecting the test against compromise. The transmitting
email only asked for comments on the applicability of the security questions to the Y-12
environment. The lack of detailed instructions is particularly relevant in that the Department
Order regarding the designation of "Trusted Agents" does not specifically mention that the
practice is also applicable to security knowledge tests. The Order instead indicates that it may be
used in performance testing exercises, such as force-on-force and similar exercises. A contractor
official cited the lack of a direct reference to test questions in the Order as one factor that
contributed to their handling of the test and its ultimate compromise.




1
    B&W is the prime contractor responsible for operating the Y-12 facility.
                                                 2
                                        Test Distribution

Based on our interviews and testing, we determined that HSS sent the test to B&W and the
NNSA Production Office (NPO) with a request that it be reviewed for accuracy. We noted that
the email message from HSS stated that one of the two attached documents was "the proposed
knowledge test." B&W then forwarded the email to a WSI-OR manager, an individual that had
not been designated as a Trusted Agent, requesting comment. The manager forwarded the email
to two other Protective Force officers, neither of whom had been designated as Trusted Agents.
One of the officers provided the requested comments and returned the attachments to the
manager who returned them to B&W. While the manager told us that this was the last he saw of
the test until the night it was discovered in the patrol vehicle, the distribution by contractor
management officials set the stage for the eventual compromise of the test.

By the next day, the test material appears to have lost its identity and wide spread distribution
began. After commenting on the test, the officer that provided comments actually discussed the
receipt of what he categorized as revised "job knowledge questions" during the Protective
Force's Plan of the Day meeting. He followed up the discussion by emailing the questions to the
Protective Force Shift Captains for use as a job knowledge aid in preparing their SPOs for the
HSS inspection. At least two of the Captains forwarded the test to their subordinate officers, and
one forwarded it to two additional Lieutenants. One of those Lieutenants in turn made copies for
distribution to the SPOs and further forwarded the test to his subordinates. One of those
individuals then passed the email attachments to the official in whose patrol vehicle the test was
ultimately found.

                                     Guidance and Direction

The Department Order on Protective Force was unclear as to the requirements for the use of
Trusted Agents. In particular, Department Order 473.3, Protection Program Operations, Annex
2, Performance Testing, stated that Trusted Agents may be designated in preparing for and
conducting performance tests of the Protective Force. According to the Order, performance tests
include: Limited Scope Performance Tests; Force on Force exercises; Command Post exercises;
Command Field exercises; and, Joint Testing exercises. The Order does not specifically require
that Trusted Agents be designated in any of these circumstances, and notably does not make
mention of job knowledge testing.

While HSS officials told us that the use of Trusted Agents applied to both performance and job
knowledge testing, the responsible B&W official told us he thought that Trusted Agents were
only for use in relation to performance testing – not for general job knowledge tests. That same
official also indicated that in a similar position at another Department site, he had treated job
knowledge questions in the same manner as he had in the recent Y-12 event. An HSS official
told us that HSS did not have a procedure specific to the designation of Trusted Agents for job
knowledge testing.

None of the emails to which the HSS test was attached provided specific direction to the
recipient regarding the responsibility to limit distribution of the documents. Although the test
was clearly marked as a test (see Figure 1), the Protective Force supervisors we spoke with stated
that they had not noticed the specific header of the document. We found this purported lack of
attention not to be credible. Rather, the Protective Force supervisors told us they just looked

                                                3
over the questions that were contained therein, determined that they looked similar to those that
were already being used to prepare the SPOs for the upcoming inspection, and decided to further
distribute them as a training aid.




                          Figure 1 – HSS Job Knowledge Test Header
                                       Contractor Governance

As with the recent intrusion at the Highly Enriched Uranium Materials Facility described in our
Special Report on Inquiry into the Security Breach at the National Nuclear Security
Administration's Y-12 National Security Complex (DOE/IG-0868, August 2012), problems with
the administration of the National Nuclear Security Administration's contractor governance
system appeared to have had a role in the compromise of the test materials at Y-12, certainly, the
assurance system did not prevent the compromise. As previously noted, the cognizant Federal
security official at Y-12 told us he did not believe that it was his role to provide input on the test.
Although not explicitly stated, this position was consistent with the failure to take an active role
in contractor governance that we observed during our review of the recent intrusion.

As noted by HSS officials, the issue at Y-12 does not appear to be unique to that site. A senior
HSS official told us that Federal officials at many other sites lacked the knowledge necessary to
provide informed feedback on knowledge testing materials and as such, the materials were
provided directly to contractors. In our view, Federal officials should have an active role in
reviewing, commenting and controlling testing material. The use of contractors is not an optimal
situation and, if necessary because of gaps in coverage by Federal officials, should be minimized
and tightly controlled.

Positive Actions

As a result of the situation at Y-12, and during our inquiry, we were told that HSS initiated
action to update its internal procedures to ensure that documents are clearly marked and that the
role of Trusted Agents is better defined and communicated. We noted, however, that the new,
updated version of the Trusted Agent agreement provided to us still did not specifically address
the applicability to job knowledge testing. In addition, HSS stated that it began using email
encryption features that required receipt acknowledgement and prevented emails from being
forwarded. Further, in at least one case, test materials were validated in person rather than via
email. In comments to our draft report, HSS indicated that these practices would be
institutionalized in a pending revision to its internal guidance.



                                                   4
Impact and Path Forward

While the actions taken to date are positive, additional effort is necessary to ensure that the
underlying problems with Departmental criteria and National Nuclear Security Administration's
governance system are addressed. In this case, harm was averted by mere happenstance when
the compromised testing material was discovered prior to the time the test was actually
administered. Based on disclosures by contractor officials, there is also a possibility that
compromises of test materials may have occurred at other sites without discovery. Security of
the Nation's most sensitive nuclear material storage and processing facilities must not be left to
chance.

RECOMMENDATIONS

To help restore confidence in the integrity of the Department's protective forces, in addition to
the actions recently initiated, we recommend that the Under Secretary for Nuclear
Security/Administrator, National Nuclear Security Administration in conjunction with the Chief,
Health, Safety and Security:

   1. Update Department directives, as necessary, to clearly define when Trusted Agents are to
      be used;

   2. Revise internal procedures and practices to ensure that all communications related to HSS
      testing are marked and protected in a manner to avoid any ambiguity as to whether they
      are to be shared; and,

   3. Clarify the contractor assurance process to address concerns with the range of authorities
      granted to and responsibilities of Federal oversight officials.

OTHER MATTER

During the course of our inquiry, B&W officials brought a matter to our attention related to
inconsistencies in materials provided by a WSI-OR Officer during its investigation of the test
compromise. The results of our review of that matter are discussed in Attachment 1.

MANAGEMENT REACTION AND OFFICE OF INSPECTOR GENERAL RESPONSE

NNSA did not agree that its implementation of the governance process was a contributory cause
of the knowledge test compromise. Rather, management concluded that the compromise was
caused by abuse of the Trusted Agent concept by a contractor official. Accordingly,
management suggested that we revise our recommendation related to the contractor assurance
system to reflect that view. Management agreed to work with HSS to implement our
recommendations regarding the integrity of security testing at all sites.

We recognize that there was a breakdown of controls at the contractor level regarding the
Trusted Agent concept. However, our analysis also led us to conclude that there was a more
fundamental issue involving the lack of in-depth security knowledge and involvement of Federal
oversight officials. This issue directly contributed, in our opinion, to the environment that
necessitated placing the testing materials in the hands of the contractor in the first place. We

                                                 5
recognize that, in some cases, the contractor has to be involved as a Trusted Agent to ensure the
safety and efficacy of the performance tests; however, the use of contractors as Trusted Agents in
knowledge tests of their own operations should be minimized to the extent practical by reliance
on Federal officials who are knowledgeable of contractor operations. Accordingly, we did not
modify our recommendation regarding the clarification of the governance process.

HSS management concurred with the Recommendations 1 and 2 and stated that it had initiated
action to address the issues identified during our review. In particular, HSS stated that it would
update both its trusted agent form and appraisal process guide to clarify the expectations for use
of trusted agents as they apply to knowledge testing. With regard to Recommendation 3, HSS
management deferred to NNSA for action. Finally, HSS noted its disagreement with the benefit
to be gained from the implementation of one of the recommendations in our draft report. We
agreed with management's assessment and removed that recommendation from the final report.

Management's comments and planned corrective actions were responsive to our
recommendations. Management's comments are included in their entirety in Attachment 3.

Attachments

cc:   Deputy Secretary
      Associate Deputy Secretary
      Administrator, National Nuclear Security Administration
      General Counsel
      Chief of Staff




                                                 6
                                                                                       Attachment 1


                          ALLEGED DOCUMENT SUBSTITUTION

On August 31, 2012, B&W Technical Services Y-12, LLC (B&W), the management and
operating contractor at Y-12, issued a Cure Notice to WSI-OR, its Protective Force
subcontractor. The notice required WSI-OR to correct the issues that led to the compromise of
the test material. On September 19, 2012, the Office of Inspector General (OIG) was contacted
by B&W officials concerning the response to the Cure Notice that B&W had received from
WSI-OR. B&W was concerned about two documents contained within the response.
Specifically, copies of email messages found behind separate binder tabs appeared to contain an
identical email message (dated August 23) that stated:

   "…Attached are the revised set of Job Knowledge questions that I spoke of this morning
   in POD [Plan of the Day]. Please remember the sensitivity issue with these questions. It
   would not be a good idea for these to be left lying around or for a SPO [Security Police
   Officer] to have these in hand during an audit. It is a useful tool to see where your
   personnel stand. Most of the information has been reviewed in the classes at CTF
   [Central Training Facility] over the past couple of weeks."

However, one version had the phrase "…or for a SPO to have these in hand during an audit"
removed. B&W was concerned that WSI-OR was attempting to cover-up actions by its
personnel to cheat on the HSS inspection.

Based on work conducted during our review, we were unable to conclusively discern whether the
existence of the two emails was the result of an administrative error or an actual attempt to
cover-up information that the sender felt could indicate an attempt to cheat. We were told,
however, that the modified email was inadvertently included in the WSI-OR response to B&W's
cure notice. Specifically, following the discovery of test materials in a Sergeant's patrol vehicle,
WSI-OR launched an internal investigation into the matter. As part of the investigation, the
Officer that initially distributed the document was asked to provide all inspection-related
materials he had in his possession. The Officer told us that while the message in his original
email referred to a "sensitivity issue" with the documents and stated that "…it would not be a
good idea for these to be left lying around or for a SPO to have these in hand during an audit…,"
he was attempting to convey that the attachments were need to know information specific to the
Protective Force; not that they included a test that would be administered by HSS.

The Officer explained to us that he became concerned that the email's message would be
misconstrued after WSI-OR officials did not understand his meaning when he attempted to
explain it. As such, he told us that he considered altering the email – going so far as to delete the
phrase regarding the SPOs – before he determined that this course of action may cause trouble as
the original email had been sent to several individuals. He ultimately determined that the best
course of action would be to provide a written explanation of what he meant by the sensitivity
issue along with the original email. He told us that unfortunately, in his haste to provide his
documents to WSI-OR, he must have inadvertently printed out the modified email message
rather than the original.




                                                  7
                                                                        Attachment 1 (continued)


Within hours of realizing how the modified document came to be in the possession of WSI-OR,
the Officer approached WSI-OR General Counsel to provide his explanation. The Officer also
reported this information to the OIG as part of our ongoing review. Ultimately, WSI-OR
terminated the Officer because it believed that the Officer had been less than truthful regarding
statements made about the email discrepancy.




                                                8
                                                                                  Attachment 2


                                 RELATED REPORTS

•   Special Report on Inquiry into the Security Breach at the National Nuclear Security
    Administration's Y-12 National Security Complex (DOE/IG-0868, August 2012). This
    review was initiated to examine the circumstances surrounding the July 28, 2012, security
    breach at Y-12 National Security Complex (Y-12). We found that the Y-12 security
    incident represented multiple systems failures on several levels. For example, we
    identified troubling displays of ineptitude in responding to alarms, failures to maintain
    critical security equipment, over reliance on compensatory measures, misunderstanding
    of security protocols, poor communications, and weaknesses in contract and resource
    management. In addition, we determined that contractor governance and Federal
    oversight failed to identify and correct early indicators of these multiple system
    breakdowns. We made several recommendations to further enhance security at Y-12 and
    across the complex. In response, management identified corrective actions it had
    initiated or completed.

•   Special Report on Management Challenges at the Department of Energy – Fiscal Year
    2012 (DOE/IG-0858, November 2011). As part of our annual report to identify the most
    significant challenges facing the Department of Energy (Department), we identified eight
    challenges and three areas for the "watch list" for Fiscal Year 2012. Specifically, the
    report identified contract and financial assistance award management as a management
    challenge and safeguards and security as an area that warrants special attention from
    Department officials. We also noted in our report that there may be significant economy
    of scale cost benefits associated with protective force contract consolidation that could
    encourage a more uniform and consistent approach to protective force organization,
    management, training, and equipment purchases.

•   Inspection Report on Incident of Security Concern at the Y-12 National Security Complex
    (DOE/IG-0785, January 2008). This review was initiated because we received an
    allegation that unauthorized portable electronic devices (including laptop computers)
    were introduced into a Limited Area which employs physical controls to prevent
    unauthorized access to classified matter or special nuclear material at Y-12 and that this
    breach in security was not properly reported. Our inspection substantiated the allegation
    and identified additional concerns related to the incident. Specifically, we found that Y-
    12 personnel discovered that an Oak Ridge National Laboratory employee had brought an
    unclassified laptop computer into the Limited Area without following proper protocols,
    the cyber security staff had not properly secured the laptop, the incident was not reported
    until 6 days after it was discovered, and as many as 37 additional laptop computers may
    been improperly introduced into the Limited Area. We made several recommendations
    to further enhance the security of information systems and responses to incidents of
    security concern. In response, management identified corrective actions taken, initiated,
    or planned.

•   Inspection Report on Protective Force Training at the Department of Energy's Oak Ridge
    Reservation (DOE/IG-0694, June 2005). This inspection was initiated because we
    received an allegation that a security police officer was given credit for training that was
    not received at the Oak Ridge Reservation. The inspection concluded that there were
                                             9
                                                                     Attachment 2 (continued)


    material shortcomings in the implementation of the protective force training program.
    Specifically, we found that personnel spent about 40 percent less time on combat
    readiness refresher training than that specified in the training plan, planned training time
    was formally reported as actual training time, personnel routinely worked in excess of the
    maximum threshold for safe operations of 60 hours per week, and personnel signed
    attendance rosters for training not received. Because of the importance to the Nation's
    security, several recommendations were made to ensure the protective force is properly
    trained.

•   Inspection Report on Protective Force Performance Test Improprieties (DOE/IG-0636,
    January 2004). The inspection was initiated at the Y-12 Site Manager's request to
    examine whether there had been a pattern over time of site security personnel
    compromising protective force performance tests. Our inspection confirmed that the
    results on a performance test may have been compromised as two protective force
    personnel were inappropriately permitted to view the computer simulations of four
    scenarios on the test. In addition, we were provided information that inappropriate
    actions had occurred going back to the mid-1980s in connection with performance tests at
    the Department's Oak Ridge complex. The National Nuclear Security Administration
    concurred with our findings and recommendations made in our report and provided a
    series of corrective actions that had been initiated or planned.




                                             10
                      Attachment 3


MANAGEMENT COMMENTS




        11
     Attachment 3 (continued)




12
     Attachment 3 (continued)




13
     Attachment 3 (continued)




14
                                                                   IG Report No. DOE/IG-0875

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report that would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:
                             Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
